              OFFICE OF
              INSPECTOR GENERAL
              U.S. DEPARTMENT OF THE INTERIOR



                                                                                         September 17, 2014
Memorandum

To:            Douglas Glenn
               Director, Office of Financial Management

Attention:     Eric Eisenstein
               Division Chief, Internal Control and Audit Follow-up, Office of Financial
               Management

                                     ~
                                          .·


                       Regio~ ger for Audits, Inspections, and Evaluations
From:          Charles Haman
               Central

Subject:       Verification of Recommendations for the Report, "National Park Service:
               Climate Friendly Parks Initiative" (Report No. HI-EV-NPS-0001-2010)
               Report No. C-VS-NPS-0040-2014

        The Office oflnspector General (OIG) has completed a verification review of the
recommendations presented in the subject report. Our objective was to determine whether the
National Park Service (NPS) implemented our recommendations as reported to the Office of
Financial Management (PFM), Office of Policy, Management and Budget (PMB). PFM reported
to us that NPS has met the intent of the recommendations and considers the recommendations
closed. We concur that the recommendations have been resolved and implemented.

Background

        An OIG evaluation report dated August 12, 2011 , titled "National Park Service: Climate
Friendly Parks Initiative" sought to determine ifNPS ' parks benefitted from the Climate
Friendly Parks (CFP) program and whether additional benefits could be realized with program
enhancements. The report found that progress made in this voluntary program might not easily
transfer to the newly mandated reporting requirements because of deficiencies in accountability,
data quality and assurance, and program sustainability. The report made four recommendations
pertaining to these deficiencies.

        In a July 13, 2011 response to the evaluation report, NPS concurred with all four
recommendations. On September 13, 2011 , we referred the recommendations to PMB for
tracking of implementation. The referral stated that we consider each recommendation resolved
but not implemented. On September 27, 2011, PFM sent a memorandum to us stating that NPS
had completed the actions required to close Recommendation 2 of the evaluation report. On May
7, 2013, PFM sent a memorandum to us stating that NPS had completed the actions required to
close Recommendations 1, 3, and 4.



                         Office of Audits, Inspections, and Evaluations I Lakewood, CO
Scope and Methodology

        The scope of this review is limited to documenting NPS’ implementation of our four
recommendations regarding its CFP initiative. We reviewed NPS’ response in the report and
requested, and subsequently reviewed, additional documentation from the bureau supporting the
steps taken to close the recommendations.

        We did not perform site visits or conduct fieldwork to determine whether NPS corrected
the underlying deficiencies that we initially identified. As a result, this review was not conducted
in accordance with the Generally Accepted Government Auditing Standards, or the Quality
Standards for Inspection and Evaluation as put forth by the Council of the Inspectors General on
Integrity and Efficiency.

Results of Review

       We concluded that NPS implemented the recommendations as indicated by PFM’s
closure notification.

NPS Recommendations and Actions Taken:

       Recommendation 1: Systematically monitor and report CFP-related results, including
       actions taken and outcomes achieved.

       Action Taken: NPS has implemented a method of monitoring the CFP-related
       information by surveying member parks annually to obtain data that includes actions
       taken and outcomes achieved. This information is then reported in the Green Parks Plan
       annual report and website.

       In addition, NPS has increased the accountability required of the parks concerning its
       CFP program. Parks are now required to complete "comprehensive" Environmental
       Management System (EMS) reports to become members. These EMS reports specify
       actions that parks should accomplish and identify persons responsible for implementing
       each action. They also help the parks monitor CFP program action items by determining
       priority projects and requiring EMS reports to be updated annually.

       Recommendation 2: Establish clear data quality standards and protocols, to include a
       secondary verification at the park unit level, and implement a systematic process to
       ensure adherence.

       Action Taken: NPS established procedures to ensure clear data quality standards and
       protocols. These procedures include—

            •   greenhouse gas (GHG) inventory data being reviewed at the park level to ensure
                that the park accounts for all emission sources occurring within its boundary,




                                                 2
           •   park inventory being checked by a park employee other than the employee who
               originally completed the Climate Leadership in Parks (CLIP) tool for that
               specific park
           •   GHG emissions inventory being reviewed by comparing each park's overall
               energy use intensity to a frequency distribution of all NPS parks’ energy use
               intensity, and
           •   reviewers sweeping the CLIP tool data to determine entry of correct data and
               information.

       In addition, NPS evaluates the quality of the GHG emissions inventory based on
       relevance, consistency, completeness, transparency, and accuracy. NPS outlined these
       standards and protocols in the Climate Friendly Parks Program Guidance Handbook, and
       to ensure adherence, it made them a requirement for CFP membership.

       Recommendation 3: Update the Climate Leadership in Parks (CLIP) tool’s capabilities
       to ensure that agency aggregate level data is compiled automatically to be less prone to
       errors and meets current greenhouse accounting and reporting requirements.

       Action Taken: NPS has updated the CLIP tool's capabilities by implementing the CLIP
       data warehouse and business intelligence framework. This framework will ensure data is
       less prone to errors and it will help to meet GHG accounting and reporting requirements.

       Recommendation 4: Develop a long-term plan for the CFP initiative that takes into
       consideration the initiative’s integration potential with other environmental programs, as
       well as its outreach potential.

       Action Taken: In the CFP Program Guidance Handbook, NPS has identified a
       strategy/long-term plan for the CFP initiative. The CFP Program Guidance Handbook
       also identifies the CFP program's initiative to integrate itself with other environmental
       programs, and it identifies its use as a tool in meeting other environmental program goals.
       In addition, NPS has identified in multiple documents the importance of communicating
       CFP program results to the public and the opportunities it has to do so.

Conclusion

       We informed NPS officials of the results of this review at an exit conference on August
21, 2014. The officials agreed with the results.


cc:    Nancy Thomas, Audit Liaison Officer, Office of Financial Management
       Sharon Blake, Audit Liaison Officer, Office of Financial Management
       Vera Washington, Audit Liaison Officer, National Park Service
       Shawn Norton, Sustainability Coordinator, National Park Service




                                                3
